No.

In the

Supreme Court of the United States

UNITED STATES OF AMERICA,
Respondent.
V.
JAMES EDWARD SANDFORD, III
Petitioner,

Motion for Leave to Proceed In Forma Pauperis
The Petitioner, James Edward Sandford, III, respectfully asks leave to
file the accompanying Petition for Writ of Certiorari without prepayment of
costs and to proceed in forma pauperis pursuant to Rule 39, Rules of the
Supreme Court. The undersigned counsel represents that Mr. Sandford was
represented in the district court and the court of appeals pursuant to the
Criminal Justice Act of 1964, 18 U.S.C. ยง 3006A, and that the petitioner
continues to be incarcerated at the United States penitentiary in Bruceton
Mills, West Virginia. Accordingly, pursuant to 18 U.S.C. ยง 3006A (d) (6)
and Rule 39.1, no declaration in compliance with 28 U.S.C. ยง 1746 is
required.

Respectfully submitted,

/s/Robert W. Wood
Robert W. Wood
Counsel of Record
2080 West Ridge Road
Rochester, New York 14626
(585) 227-9830
Robertwoodatty@yahoo.com

